<html>
<title> - ECONOMIC AND COMMUNITY IMPLICATIONS OF NORTHERN BORDER SECURITY</title>
<body><pre>[Senate Hearing 110-255]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-255
 
    ECONOMIC AND COMMUNITY IMPLICATIONS OF NORTHERN BORDER SECURITY

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 10, 2007

                               __________

                            NEWPORT, VERMONT

                               __________

                          Serial No. J-110-48

                               __________

         Printed for the use of the Committee on the Judiciary


                                     
                    U.S. GOVERNMENT PRINTING OFFICE
40-285                      WASHINGTON : 2008
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
EDWARD M. KENNEDY, Massachusetts     ARLEN SPECTER, Pennsylvania
JOSEPH R. BIDEN, Jr., Delaware       ORRIN G. HATCH, Utah
HERB KOHL, Wisconsin                 CHARLES E. GRASSLEY, Iowa
DIANNE FEINSTEIN, California         JON KYL, Arizona
RUSSELL D. FEINGOLD, Wisconsin       JEFF SESSIONS, Alabama
CHARLES E. SCHUMER, New York         LINDSEY O. GRAHAM, South Carolina
RICHARD J. DURBIN, Illinois          JOHN CORNYN, Texas
BENJAMIN L. CARDIN, Maryland         SAM BROWNBACK, Kansas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
            Bruce A. Cohen, Chief Counsel and Staff Director
      Michael O'Neill, Republican Chief Counsel and Staff Director


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Leahy, Hon., Patrick J., a U.S. Senator from the State of Vermont     1
    prepared statement...........................................    33

                               WITNESSES

Eidsness, Dana B., Director of International Trade, Vermont 
  Global Trade Partnership, Newport, Vermont.....................    15
Hyde, Bruce, Commissioner, Vermont Department of Tourism and 
  Marketing, Montpelier, Vermont.................................     4
Picard, Curtis, Vice President, Vermont Chamber of Commerce, 
  Montpelier, Vermont............................................    12
Sears, Patricia, Executive Director, Newport City Renaissance 
  Corporation, Newport, Vermont..................................    18
Shea, Timothy P., Vice President and Congressional Liaison, Lake 
  Champlain Regional Chamber of Commerce, Burlington, Vermont....    10
Stenger, Bill, President, Jay Peak Resort, Jay, Vermont..........     7

                       SUBMISSIONS FOR THE RECORD

Eidsness, Dana B., Director of International Trade Vermont Global 
  Trade Partnership, Montpelier, Vermont, statement..............    25
Hyde, Bruce, Commissioner, Vermont Department of Tourism and 
  Marketing, Montpelier, Vermont, statement......................    28
Jenne, Karen, Clerk/Treasurer, Derby Line, Vermont, letter.......    29
Klinefelter, Leslie, West Stewartstown, New Hampshire, letter....    31
Searles, Brian, Director of Aviation, Burlington International 
  Airport, Burlington, Vermont, statement........................    36
Sears, Patricia, Executive Director, Newport City Renaissance 
  Corporation, Newport, Vermont, statement.......................    37
Shea, Timothy P., Vice President and Congressional Liaison, Lake 
  Champlain Regional Chamber of Commerce, Burlington, Vermont, 
  statement and attachment.......................................    41
Stenger, Bill, President, Jay Peak Resort, Jay, Vermont, 
  statement......................................................    60
Zuccareno, Bill, Chief International Officer, Economic 
  Development Council of Northern Vermont, Northern Vermont-
  Quebec Trade Coalition, St. Albans, Vermont, statement.........    62


    ECONOMIC AND COMMUNITY IMPLICATIONS OF NORTHERN BORDER SECURITY

                              ----------                              


                      WEDNESDAY, OCTOBER 10, 2007

                              United States Senate,
                                Committee on the Judiciary,
                                                   Washington, D.C.
    The Committee met, Pursuant to notice, at 10:50 a.m., at 
the Gateway Center, 84 Fyfe Street, Newport, Vermont, Hon. 
Patrick J. Leahy, Chairman of the Committee, presiding.

OPENING STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Chairman Leahy. Please sit down. I think this may be the 
first time the Senate Judiciary Committee has met in Newport, 
Vermont. I'm delighted to do it.
    I must admit that there are a number of Senators who told 
me that we could have done this on Monday. They wanted to be 
here. I think it has something to do with fall foliage time. I 
told them, when I was asked what I would do during these 2 days 
of break we have at the Senate, I said, at great personal 
sacrifice, I'm willing to be in Vermont at the height of the 
foliage season.
    [Laughter].
    Nobody seemed to feel badly about that.
    But we're going to focus on the impact of the policies set 
by the Department of Homeland Security. I fear they will have 
severe implications for the social and economic ways of life in 
border communities all across our country--not just in Vermont, 
but all the way across the country. I am told by the U.S. 
Chamber of Commerce that some of these policies, if fully 
implemented, will cause between $200 and $300 billion a year in 
jobs in the United States.
    I am pleased that a number of the business community 
leaders in Vermont are able to join us today. I would note that 
the importance of this hearing is that this will create a 
record for hearings we will then have with Condoleeza Rice, on 
a committee I chair, and Michael Chertoff.
    We will also, within a short while, be having hearings in 
the Senate Judiciary Committee with the new nominee to be 
Attorney General of the United States. Some of the things that 
will come out of this hearing will form the basis of some of 
the questions that will be asked of the Attorney General 
nominee. I mention this, because Newport is going to play a 
pivotal part in that debate. Incidentally, all the testimony of 
everybody, the prepared statement--the whole prepared 
statement--will be part of the record.
    Mayor Guyette, I wanted to thank you for letting us be 
here. The city looks great. I drove by the building that had 
been a hospital where my wife was born here in Newport and it 
all looks good. We have representatives from Senator Sanders's 
staff, Congressman Welch's staff: Jeff Munger and Mary 
Sprayregen. They have been great partners on this issue in 
Washington. Senator Sanders is holding other hearings. 
Congressman Welch is in session.
    I also want to thank the citizens of Canada who have joined 
us here today, and the Canadian Consul General from Boston, 
Neal le Blanc, is here. Bienvenue, Monsieur le Blanc.
    In the wake of the September 11th terrorist attacks, a 
number of new border security measures have been put in place, 
from constructing border fences, to developing and deploying 
surveillance technologies and troops along our borders. They 
have all been done with the express goal of stopping another 
terrorist attack. We all agree that we have to protect our 
borders, but we have to do it sensibly and intelligently.
    It is sometimes convenient to forget that most of the 9/11 
hijackers entered the United States through legal visas. They 
would have been able to enter no matter what kind of barriers 
we had. Some were on a secret watch list, but unfortunately 
nobody was watching them. It has nothing to do with our border. 
9/11 could have been prevented had the dots been connected. In 
fact, some of the hijackers received from the U.S. Government 
notices that it was time to renew their visas, and they 
received those notices months after the attack on 9/11 when 
they died.
    So I'm afraid that the administration's current policies 
threaten to fray the social fabric of countless communities 
that straddle the border, here in Vermont, of course, our 
primary concern, but also the other border States. I've heard 
from many Vermonters who have encountered problems at U.S. 
border crossings, with long traffic backups, invasive searches, 
questioning, and inadequate communication with government 
authorities about new facilities and procedures.
    That kind of top-down approach has not worked in interwoven 
communities. When you are used to walking across the street to 
talk with your neighbor, you don't think about the fact that 
the middle of the street may be an international border. You're 
thinking about the fact you want to go and talk with your 
neighbor. People cross daily for jobs, shopping, and other 
cultural things.
    Some of the procedures may have snared some illicit drug 
shipments from criminals, but it hasn't done much in snaring a 
terrorist. Meanwhile, I think we've needlessly offended our 
neighbors and have sacrificed much of the traditional goodwill 
we've enjoyed and undermined our own economy and border 
communities like Newport and Derby, Richford, and Norton.
    That's why I've worked hard to try to bring balance and 
I've tried to convey in Washington the fact that we have a 
special relationship with Canada. It's something that we 
sometimes forget because we take it for granted here in 
Vermont. We can go back and forth. We have a lot of relatives, 
we have friends, we have business associates, we have tourists 
in Canada. Many of us have members of our family who are 
Canadian. Canada has been an important trading partner and a 
friendly neighbor to Vermont and the United States for more 
than 200 years.
    So it's in the best interests of both our countries to keep 
these relationships as positive and productive as possible. 
Post 9/11, people on both sides understand the need for 
security. I've talked with the intelligence authorities in 
Canada, as I have in our own country. I've talked about how you 
can have better cooperation between law enforcement in the 
United States and Canada, but you're not going to create better 
security by simply locking down the border.
    We have heightened security around the U.S. Capitol where I 
work every day, in the White House. We built fences on the 
border near San Diego. But those procedures don't work.
    So I'm troubled by the Western Hemisphere Travel 
Initiative. It's going to require individuals from the United 
States, Canada, Mexico, and the Caribbean to present passports 
or documents proving citizenship when they come to the United 
States. There's a dramatic change coming in the way border 
crossings will be processed in the western hemisphere.
    There's a big difference since the Treaty of Paris on our 
international boundary. For those who weren't around at the 
time of the Treaty of Paris, that boundary, that was 1783. I'm 
the only one that was there at that time.
    [Laughter].
    The Departments of State and Homeland Security have been 
charged with implementing this law. They should be coordinating 
our efforts with their international neighbors to bring about a 
smooth transition.
    But I've told Secretary Rice and Secretary Chertoff on 
several occasions there were serious problems in the way in 
which their agencies have pushed for implementation of this law 
and this new initiative. They've got to put necessary 
technologies in. You have Homeland Security and Department of 
State that have computers that can't talk to each other. This 
is a fiasco in the making.
    If they go forward with it, we're going to see delays that 
are unconscionable and free traffic back and forth between two 
great countries is going to come to a screeching halt. We saw 
before what happened when they did this with air traffic when 
they said it was going to be done smoothly, and then they had 
to back off in just a matter of weeks. That's only about 10 
percent of the traffic.
    I don't know how many calls we get a week. Every time I 
walk in my Vermont office, somebody is calling about a 
passport. They can't get through. They've ordered an expedited 
passport--I see Mr. Hyde is shaking his head; he knows what 
that's like. He gets the same calls--the passport hasn't come 
through.
    Now, I think it's time that we ignore the fiction that we 
can do this by the first of next year. Let's find out how we 
can make it happen smoothly. Let's find out how we can find a 
way. I know there are 2,000 different kinds of identification 
that you can look at and go through, but we can find a better 
way.
    Two great nations are going to have to sit down and work 
that out, but that cannot be done if the United States says, 
this is the way it's going to be done, without realizing the 
tremendous cost to families, to businesses, and on 
relationships between our countries.
    Our first witness, Mr. Bruce Hyde, is Vermont's 
Commissioner of Tourism. I might say that as a United States 
Senator I am an ambassador of the Vermont people to the rest of 
the world, but of course you are truly an ambassador to 
Vermont's beauty, especially to all those who are carrying 
these ``loonies'' that are worth a lot more than they used to 
be.
    Through the work of the Vermont Chamber of Commerce, Lake 
Champlain Regional Chamber of Commerce, he's helped educate 
people. He's been down in Washington many times with the 
Business, Economic Security, Tourism and Trade Coalition. He 
offers us an interesting perspective as Commissioner of 
Tourism. He's a long-time owner of an inn in Mad River Valley. 
I can look at the Mad River Valley from my front steps in 
Middlesex, Vermont every time I'm home.
    Normally we swear in witnesses. I'm not going to do that 
with this room. I know you all. I don't see the necessity.
    Bruce, if you'd like to start, the floor is yours.

 STATEMENT OF BRUCE HYDE, COMMISSIONER, VERMONT DEPARTMENT OF 
           TOURISM AND MARKETING, MONTPELIER, VERMONT

    Mr. Hyde. Thank you, Senator. Thank you for the opportunity 
to be here today. It's a very timely meeting that you've called 
here. It's peak foliage, as we look out the window. Plus it is 
Columbus Day weekend, probably the busiest weekend that we have 
in Vermont, and it coincides with Canadian Thanksgiving.
    We certainly heard about some border backups over the last 
few days and over the last months, actually, but a lot of 
traffic is coming down. The Canadian dollar is certainly 
encouraging more visitors to come down from Canada, and I've 
got some statistics to show you today.
    I also want to thank you for the leadership that you've 
taken on extending the passport requirement, to pass 
legislation that requires the administration to come up with a 
plan to make sure that all the technology is in place before 
they implement this requirement, and we appreciate that.
    Certainly we need to educate folks. We receive calls all 
the time about the passport requirement: do we need a passport 
now? What kind of documentation do we need? Some people--a lot 
of people--think that they need a passport as of today, and 
that's misinformation that we continue to try to educate about.
    I would go into my testimony. Canadian travel----
    Chairman Leahy. All of which will be part of the record.
    Mr. Hyde. Excuse me?
    Chairman Leahy. I said, all of which will be part of the 
record.
    Mr. Hyde. Okay. Thank you.
    Canadian travel to Vermont is critical to the State's 
economy. It is extremely important that the border facilitates 
the movement of travelers, goods, and services as expeditiously 
as possible. While security is paramount for the country's 
well-being, it is also important to consider the economic 
impact if the border crossings limit this free flow of 
commerce. These issues are of critical importance to both the 
United States and to Canada.
    In 2005, there were over 1.9 million Canadian day visitors 
to Vermont, spending an average of $66 per day. Nearly $350,000 
per day is spent by these Canadian day visitors to Vermont. 
Canadian day visitors comprise over two-thirds of our out-of-
state day traffic to Vermont. Day visitation from our 
neighboring States of New York, Massachusetts, and New 
Hampshire, combined, is only one- third of the total. Of all 
the research the Vermont Department of Tourism and Marketing 
has done recently, the most surprising finding, according to 
State economist Jeff Carr, is that most of our day visitors 
come from north of the border.
    In 2005, Canadians accounted for 20 percent of our entire 
State visitation, with total Canadian visitors spending 
averaging more than $644,000 a day. In 2006, overnight Canadian 
visitors spent an average of $204 per trip, which was up 20 
percent over 2005, due to longer stays and increased purchases 
of both goods and services. Vermont's tourism infrastructure 
has a lot of room for growth. Currently, Vermont has an 
occupancy rate of about 40 percent, and the Canadian visitation 
is an important and increasing sector of this tourism economy.
    Web traffic and visitor inquiries continue to increase from 
Canada. Canadian requests for vacation information increased 17 
percent in September over last year. This is clearly a result 
of the strong Canadian dollar and more aggressive marketing in 
Quebec by the Department of Tourism and Marketing and the 
private sector.
    Visitor centers along our northern borders have experienced 
double-digit increases over the last few months. While Canadian 
visitation has increased significantly over the past few years, 
international visitation to the United States has declined 17 
percent since 2001, resulting in the loss of billions of 
dollars in revenue and over 200,000 jobs nationwide.
    During this same period, international travel increased 
over 20 percent worldwide. The United States has lost a great 
deal of opportunity in this very important, low-impact export 
industry. The potential for international visitors entering 
Vermont from Montreal and other Canadian entry points is 
enormous, but, unfortunately, very curtailed in today's 
environment.
    Canadians utilize the Burlington International Airport due 
to its convenience and competitive prices. Over 30 percent of 
travelers flying out of Burlington are from north of the 
border. The number continues to increase, despite very little 
marketing in Canada. The Western Hemisphere Travel Initiative 
has already had a negative impact on potential travelers from 
Canada.
    The Department of Tourism and Marketing and other Vermont 
organizations are constantly fielding questions from Canadians 
and tour operators about passport requirements. There's a great 
deal of confusion about documents required at the border. Less 
than 40 percent of Canadians have passports. It is a 
significant expense for many families, and most certainly is a 
deciding factor when Canadians plan a vacation or trip.
    Many of our border communities and families are split by 
the international property line that you just mentioned. 
Families live on either side. School activities, sporting 
events, festivals, family gatherings take place on both sides 
of the border. Travel to and from these activities should be 
easily accomplished. Commerce also needs to move as freely as 
possible.
    While the enhanced driver's license will help Vermonters' 
identification requirements when returning to the United 
States, it really does nothing to assist with Canadian entry. I 
hope the United States and Canadian governments can work 
together to establish efficient border criteria so that both 
countries can continue the longstanding exchange of people, 
goods, and services.
    I'd really highlight, over the years that I've been 
involved with WHTI, it's been very clear that there's been very 
little discussion between the U.S. Government and the Canadian 
Government as to how to resolve this issue. I think over the 
past few months there may be some more discussions going on, 
but we really need to make sure what works for us also works 
for the Canadians, 90 percent of which live within 100 miles of 
the U.S. border. It's imperative that we try to keep that 
border as free flowing as possible.
    I'd like to just make one additional comment, which strays 
a little bit from today. Again, thank you for your leadership 
on the H2B visa program. It's a critical issue in Vermont. With 
unemployment some of the lowest in the country, we don't have 
enough workers in Vermont. We have not only the ski resorts, 
but places like Basin Harbor Club that could not exist without 
the H2B visa program. These are foreign workers that come in. 
They're paid well. They certainly do not displace any 
Vermonters from that work.
    Every resort that I've talked to, whether it's Basin 
Harbor, Jay Peak, or Killington, they certainly try to find 
Vermont workers first. But it's a critical program that has a 
ceiling on it. I understand there were 33,000 openings just a 
couple weeks ago, and there were many, many times that that 
were applied for. I guess there was a lottery to pick who would 
get these H2B visas. Again, this is another critical item that 
we'd certainly like to keep on the record.
    Thank you.
    [The prepared statement of Mr. Hyde appears as a submission 
for the record.]
    Chairman Leahy. Thank you. It is something that members of 
the delegation are working on. They are working on that, and 
also the question of year-round cultural visas.
    Bill Stenger is the president of Jay Peak Resort in Jay, 
Vermont. I almost feel like it's close to Newcastle, 
introducing you here in Newport. But Jay Peak has become one of 
the northern New England's most sought-out destinations. In 
fact, when I saw that as the plane came in here on Sunday and 
took a glide, I could see Jay Peak sticking up out of the 
clouds. But it's been Bill's business to have the creativity to 
develop a multi-season resort. I was congratulating Bill 
earlier on the golf course.
    He's been a critical partner in the fight to protect our 
borders. He's been very active in the Vermont Ski Areas 
Association and the United States Ski Association. He has a 
unique perspective on the importance of a friendly and secure 
border between Quebec and the United States. I know that I have 
probably talked with Bill Stenger as much as any single person 
in Vermont about the relationship of going back and forth, with 
the possible exception of Marcel's relatives when they come 
across the border.
    Bill, it's all yours.

  STATEMENT OF BILL STENGER, PRESIDENT, JAY PEAK RESORT, JAY, 
                            VERMONT

    Mr. Stenger. Thank you, Senator. I want to, first, thank 
you for bringing this hearing to Newport. It clearly shows me, 
and all the members of our community, that you are fully 
engaged with the serious concerns we all feel with the 
impending Western Hemisphere Travel Initiative policies 
affecting the cross-border travel.
    I also want to express my sincere appreciation to you and 
your very effective staff for the work that they do for us. 
They're always available to us, and I appreciate it. I know our 
business community, and all homeowners, do as well.
    I'd like to share with you how the Western Hemisphere 
Travel Initiative policies can affect Jay Peak, Vermont and, 
indeed, our country. We're a company that has been operating 
since 1955. We have grown from a modest local recreation area 
to an international resort where 300,000 skiers visit in winter 
and, now with the widely acclaimed championship golf course, we 
are attracting record numbers of summer visitors.
    Fifty percent of all of our guests to Jay Peak come from 
Canada. Of those, 75 percent come from the Province of Quebec 
and 25 percent from the Province of Ontario. Jay Peak employs 
550 Vermonters in winter, and 150 in the summer. These numbers 
are on the increase because millions of dollars of investment 
is planned for Jay Peak in the next few years, due to our 
optimism in our product and our market's interest in it.
    All of our work in developing business momentum at Jay Peak 
and the northern communities that surround Jay Peak in Orleans 
and Franklin Counties will be at very serious risk if the 
Western Hemisphere Travel Initiative is implemented as now 
planned.
    Here are my concerns: guests from Canada are not compelled 
to come to Vermont for recreation. Quebec has a vibrant and 
healthy ski and golf industry. Canadians choose to come to Jay 
Peak because they love our product and our welcoming service 
attitude towards them. They feel like a guest and they look at 
Jay Peak as their own local area, a very special place for 
them.
    This vibrancy can be lost in a short time if crossing into 
Vermont becomes an expensive, unpredictable, time- consuming, 
and unfriendly process. Skiers know the best experience in an 
area is the first few hours of each day. If they're blocked at 
the border with inefficient crossing restrictions and 
technology that is untested in winter, or any other 
environment, those Canadians will stay home where they know 
they can get swift access to their resort.
    I became very alarmed this spring when the initial 
implementation of the Western Hemisphere Travel Initiative was 
rolled out for the cruise industry. The Department of Homeland 
Security and the State Department were totally unprepared for 
the volume of passports required and thousands of Americans' 
plans were disrupted, all because Federal authorities 
underestimated the impact.
    Senator Leahy, I and my fellow Vermonters cannot afford the 
State Department and the Department of Homeland Security to 
misjudge the impending policy changes and what will be required 
to implement them. They, and we, are not going to get a second 
chance. We will be fatally harmed economically if the new 
protocol is not right the first time.
    In fact, it is questionable whether the Western Hemisphere 
Travel Initiative is a solution to any problem. I believe there 
are a few things that everyone should keep in mind before 
assuming that the Western Hemisphere Travel Initiative is a 
useful tool to make us safer.
    Of all the illegal immigrants in the United States, 
Canadians comprise only 0.7 percent. In contrast, Mexicans 
constitute 68.7 of all illegal immigrants to the United States. 
That's from the Department of Homeland Yearbook in 2003.
    As a practical matter, the Western Hemisphere Travel 
Initiatives target only Canadians. About 35.9 million cross our 
border with Canada annually without a passport. This is from 
the Detroit Chamber of Commerce. Except for Bermudans, all 
others who wish to enter the United States currently will need 
a passport. Non-Canadian citizens entering the U.S. from Canada 
currently require a passport. The Western Hemisphere Travel 
Initiative adds nothing new, except the burden on Canadians who 
are law- abiding.
    At the conclusion of a conference I attended in Burlington 
sponsored by the Department of Homeland Security about 2 years 
ago when they were introducing the Western Hemisphere Travel 
Initiative to our community leaders, the senior representative 
of the U.S. Consulate in Montreal concluded off the record that 
``Congress just forgot about Canada when it enacted the Western 
Hemisphere Travel Initiative'', referring to the impact on 
border crossings and trade.
    About 35 percent of Canadians have passports. The cost is 
nearly $90 for every member of a family who wants to ski or 
golf in the United States. It takes at least a month for a 
Canadian to obtain a passport. Spontaneous leisure travel 
typically happens within 7 days of the decision to come to the 
United States.
    In addition to Canadians recreating in Vermont and 
throughout the United States, they enter the U.S. to obtain 
medical care, go to school, participate in or attend athletic 
competitions, and for many other reasons. How will the Western 
Hemisphere Travel Initiative affect the ability to be in the 
U.S.? What will the true loss to our economy be once the 
Western Hemisphere Travel Initiative is effective on our 
northern border?
    In 2003, the American Truckers Association estimated that 
there are 11.5 million trucks, with more than 23 million 
crossings from Canada to the United States. These truckers will 
require a passport or new forms of travel documentation if the 
Western Hemisphere Travel Initiative is implemented at land 
port entries.
    How will real-time inventory control for manufacturing be 
affected by longer delays at our border? The Western Hemisphere 
Travel Initiative will depend on the radio frequency 
identification technology imbedded in travel documents. DHS is 
touting this technology to Congress and to the American public, 
but DHS's own internal evaluation of the RFID technology 
concludes ``we recommend that RFID be disfavored for 
identifying and tracking humans,'' DHS Emerging Applications 
and Technology Subcommittee. That's the source of that.
    The opening estimate for the cost of implementing this 
technology is several billions of dollars. I fear we haven't 
tested the technology in winter conditions. They also haven't 
taken into consideration what Canadian Immigration must do to 
comply with our new plans. It is embarrassing how little 
communication has occurred with our neighbors to the north and 
how little evaluation of the importance of economic impact 
Canada has on our State and across the Nation.
    DHS thinks exclusively about security, and I respect that. 
But someone needs to go beyond just security and recognize that 
the lives and livelihoods of tens of thousands of Americans 
will be sharply and negatively impact if the economic well-
being of the border communities is not taken into 
consideration.
    We cannot afford to miss getting this balance right the 
first time. This whole issue gives one pause to consider just 
what will be accomplished by this massively heavy, and 
bureaucratically heavy, process. Will hardened professional 
terrorists really be deterred from entering the United States? 
Won't the impending change simply create a high-technology 
underground document- forging business?
    Last spring, 17 terrorists were arrested in Toronto for 
plotting to destroy landmarks in Toronto. Every one of them 
had, or was entitled to obtain, a valid Canadian passport. 
Every one of them could have legally passed into the United 
States.
    Years ago, a man intent on detonating a bomb in Los Angeles 
International Airport was intercepted by an astute Immigration 
inspector as he entered the State of Washington. He was in 
possession of seven passports. What is really going to be 
accomplished here? We haven't thought this through correctly.
    At the very least, the implementation should be delayed at 
least a year for testing to the standards in the Leahy-Stevens 
amendment. I urge you to seek implementation of the amendment 
that you sponsored and delay and defer the implementation of 
the Western Hemisphere Travel Initiative.
    Senator, I sincerely thank you for the opportunity to share 
these thoughts with you.
    [The prepared statement of Mr. Stenger appears as a 
submission for the record.]
    Chairman Leahy. Bill, I appreciate it. You know, it's 
interesting what the person from our consulate in Montreal has 
said because, of course, the Western Hemisphere Travel 
Initiative--which was actually an administration amendment that 
was slipped into another bill at their request, allows them to 
say they are following a congressional mandate.
    What they want to ignore is the Leahy-Stevens amendment, 
which has passed, that says that you have to wait until you can 
work all these problems out that you've talked about. We know, 
based on the scientific research, they're not going to be able 
to work out many of the technical issues associated with WHTI.
    You talked about what happens in the meantime in RFID, and 
all the others. These things are just not going to work. There 
is a better way. I do understand that there are 2,000 different 
kinds of identification, but there is an easier and a better 
way that requires respectful work between the two countries.
    We were going to have Harry Hunt at Derby Line testify. He 
has had some health problems. We all hope he is going to be 
better, and we'll make sure that the reports from Derby Line 
will be part of the record.
    But I also want to thank Tim Shea and Curtis Picard for 
being willing to help pick up some of that slack.
    Tim Shea is vice president of the Lake Champlain Regional 
Chamber of Commerce and handles a large segment of the 
chamber's business and government relations. He has been an 
employee of the Lake Champlain Chamber of Commerce since 1994. 
He's one of our most respected authorities on travel, business, 
and tourism. Like Commissioner Hyde, he's been very active in 
the BESTT Coalition. He has worked with my office a great deal. 
We see each other in Washington and here in Vermont. It's nice 
to have you here, Tim. Thank you.

STATEMENT OF TIMOTHY P. SHEA, VICE PRESIDENT AND CONGRESSIONAL 
     LIAISON, LAKE CHAMPLAIN REGIONAL CHAMBER OF COMMERCE, 
                      BURLINGTON, VERMONT

    Mr. Shea. Thank you, Senator. I want to echo the comments 
of the previous speakers and thank you for your leadership on 
this issue and the opportunity to share my comments here today.
    The Lake Champlain Regional Chamber of Commerce has 2,500 
members located throughout northern Vermont, many of whom are 
very dependent on the flow of commerce across the northern 
border.
    Over the past 2 years, we've been an active member of the 
Business for Economic Security and Trade Coalition, the BEST 
Coalition, which represents 300,000 businesses. It's an 
international coalition of businesses and trade associations 
across the United States and Canada who share a common concern 
about the ramifications of the Western Hemisphere Travel 
Initiative. Together, we have been working to find a solution 
for WHTI and reverse the devastating effect it will have on the 
U.S. economy.
    I want to expand upon the comments of those before me and 
provide a national perspective on the issue. Here are some 
figures: 90 percent of Canadians live within 100 miles of the 
border; daily trade between the U.S. and Canada is estimated at 
$1.2 billion, and supports 5.2 million jobs; in 2005, there 
were 38 million trips by Canadians who visited the U.S.
    Twenty-six percent of Americans have passports, while 35 
percent of Canadians have passports. This, however, is not just 
a northern border State issue. Florida, California, and Nevada 
rank in the top four for Canadian spending in the States.
    As part of my testimony today, I am submitting an analysis 
of the proposed WHTI rule recently prepared for the Tourism 
Industry Association of Canada. This report reviewed and 
assessed the economic analysis included in the Notice of 
Proposed Rulemaking related to the requirement for land and sea 
crossings within the western hemisphere.
    Chairman Leahy. And without objection, that will be made a 
part of the record.
    Mr. Shea. The report estimates that once land and sea 
passport requirements begin next year, the loss of expenditures 
from Canadian travelers to the United States will be roughly 
$820 million in the year 2008. This is a four-fold increase 
from the Department of Homeland Security's estimate of $200 
million. It was determined that the Department of Homeland 
Security report contained a number of calculation errors and 
used outdated tourism information. In addition, the DHS 
analysis does not consider the wider impacts of these 
regulations--these new regulations--would have on business and 
trade activity, which is what we're exploring here today.
    As the report states, restrictions on trade, such as 
restrictions on the movement of people, have the potential to 
reduce the trade and harm the economies of both countries.
    I am also submitting a graph that tracks Canada and U.S. 
border crossings and compares that to the value of the Canadian 
dollar.
    Chairman Leahy. The graph will be made part of the record.
    Mr. Shea. Thank you, Senator.
    For over 20 years, the number of Canadians crossing our 
shared border mimic the rise and fall of the Canadian dollar: 
when the dollar was down, crossings were down; when the 
Canadian dollar rose against the U.S. dollars, crossings 
increased. Since 9/11, crossings have been nearly flat and at 
much lower levels than they were in 1991, the last time the 
Canadian dollar was close to parity. However, while the 
Canadian crossings have been flat, the Canadian dollar has 
increased from 63 percent to close to parity.
    It is our belief that one of the reasons Canadians have not 
returned to the levels they once did is tied directly to the 
issues at the border when entering the U.S. and confusion as to 
the proper documentation needed to enter the U.S. We also feel 
that the requirement for citizens to have a passport to enter 
the U.S. will only decrease the number of Canadians that travel 
to the U.S., regardless of the value of the dollar compared to 
ours.
    The bottom line is, the Western Hemisphere Travel 
Initiative, at best, will provide a false sense of security. 
While no one can debate the need for secure borders, the 
Western Hemisphere Travel Initiative is not the answer. Senator 
Leahy, I would again like to thank you for your leadership on 
this issue and encourage you to continue your efforts to delay 
implementation to no sooner than June 1, 1909 so that we have 
time to find the appropriate solution.
    Thank you for the opportunity to testify.
    [The prepared statement of Mr. Shea appears as a submission 
for the record.]
    Chairman Leahy. And we have to show some reality here. I 
recall once--I'm in Vermont almost every week, but once a year 
we drive it, during the summer break. We load up the car with 
all kinds of stuff that we have to have in our home in Vermont 
and we realize we don't need it and we load it all up and bring 
it back. But I was about 100 miles from the border, driving 
back, and got stopped at the border. I was driving a car with 
license plate 1 from Vermont. I think it says down at the 
bottom, ``U.S. Senate''. The person comes over and demands to 
see proof of citizenship. I thought at first it was a joke.
    I said, what authority? He pointed to his gun. He said, 
``That's all the authority I need.'' I said, ``Could I speak to 
your supervisor? '' He said, ``Get out of the car.'' I said, 
``Let me speak to your supervisor.'' At that point, somebody 
with brass comes over and looks at the plate, looks and me and 
kind of groaned. I said, ``You know, the Constitution required 
me to be a citizen.'' But I said, ``I don't mind. I'd be happy 
to.''
    I go back and forth across the border. I show my ID when I 
go, even though a lot of times somebody will call me by name. I 
still show my ID, as I do at the airports. But a little 
courtesy. Most people are law-abiding. And showing a friendly 
face when they come here, goes a long way. I spent 8 years as a 
law enforcement and I know you have to be stern, but you also 
need to show a friendly face.
    Curtis Picard is the vice president of the Vermont Chamber 
of Commerce. He leads the international trade efforts. He 
frequently works with our neighbors in Quebec and Canada to 
ensure that goods flow back and forth. The Vermont Chamber has 
been a critical ally since before the passport requirements are 
slated to take effect as a result of the Western Hemisphere 
Travel Initiative. Curtis, along with Lake Champlain Regional 
Chamber of Commerce and the State of Vermont, believe in the 
issue of raising awareness of this issue of going across the 
country.
    So, Curtis, thank you for being here today. Please go 
ahead.

STATEMENT OF CURTIS PICARD, VICE PRESIDENT, VERMONT CHAMBER OF 
                 COMMERCE, MONTPELIER, VERMONT

    Mr. Picard. Good morning, Senator. Thank you for the 
opportunity to testify this morning. Your remarks are taken to 
heart. One of the things I'm most proud of with this Western 
Hemisphere Travel Initiative is the work that the folks sitting 
here in the audience have done, which is really a model of 
leadership and cooperation, your leadership on this issue in 
Washington, as well continued support of the congressional 
delegation, Senator Sanders, Congressman Welch.
    We've all been singing from the same song sheet. Governor 
Douglas, working with the State Governors Association, has 
produced resolutions and letters of support to the changes for 
the Western Hemisphere Travel Initiative, and Lieutenant 
Governor Dubie as well, with the Lieutenant Governors 
Association.
    Chairman Leahy. In fact, if I might, you stated something I 
was going to say. I want to congratulate both the governor and 
the lieutenant governor in their support of this. Please pass 
that word back to Jim Douglas and Brian Dubie. I think by doing 
this, we've demonstrated this is not a partisan or a political 
thing. We're locked at the hip on this issue.
    Mr. Picard. Correct.
    Chairman Leahy. Please go ahead.
    Mr. Picard. And I think all Vermonters understand the 
impact that this issue would have. Also, I want to recognize 
our Vermont House and Senate representatives as well, who both 
passed resolutions supporting changes to the Western Hemisphere 
Travel Initiative. From a State Chamber perspective, the work 
we've done with my colleague, Tim Shea from the Lake Champlain 
Regional Chamber of Commerce, as well as other Chambers 
throughout the U.S., the Federation of Chambers of Quebec have 
worked closely with us on this issue, and small local Chambers 
as well.
    Through our work in spreading the word, we've been able to 
energize the trade groups to begin addressing this issue as 
well. The Vermont Farms Association to Promote Agritourism have 
a concern about this issue. The Vermont Association of Snow 
Travelers, the snowmobilers. For those of us in this room, 
snowmobiling is a huge economic engine for the State and often 
doesn't get recognized in the lower 48 as in the northern 
border winter sport States.
    Chairman Leahy. We have a vast trail that goes right 
through our property in Middlesex, Vermont. I appreciate how 
well they've maintained things; but I also appreciate the fact 
that this is an economic--a serious economic--issue.
    Mr. Picard. Correct. And I think it's even magnified in 
States like Maine as well, which has a much more extensive 
trail system for snowmobiles. What folks have told us, is they 
go across the border three or four times in a daily trip and 
not even realize it. I also want to thank Bill Stenger, 
representing Jay Peak, here. But there are a number of 
businesses that straddle the border as well.
    Tivoly, of course, here in the Newport area. The factory 
literally sits on the border. Employees literally walk across 
the country as they walk across the room. As we all know, the 
Haskell Opera House straddles the border too. I want to relate 
a story. Last week, I was able to meet with Brian Harwood, I'm 
sure you know, with Radio Vermont, formerly with HMC, who was 
up at the Haskell Opera House in Derby and attended the Vermont 
Symphony Orchestra concert. He stated he parked on the wrong 
side of the border, and there was a border agent ready to greet 
him when he came out. And after a stern tongue-lashing, he 
realized the error of his ways.
    But, you know, Brian's been a lifelong Vermonter, supporter 
of many things, including the Vermont Symphony, and it would be 
a shame if cultural institutions like the Vermont Symphony 
could no longer perform at the Haskell Opera House because of 
the implementation of the Western Hemisphere Travel Initiative.
    Chairman Leahy. I almost have this image of the strings 
section having to have their passports hanging on their bows.
    [Laughter].
    Anyway, I'm sorry. I digress.
    Mr. Picard. And I had an opportunity last Friday, not 
related to the Western Hemisphere Travel Initiative but the 
work we're doing with the Vermont Aerospace and Aviation 
Association, of which you are an honorary chair of that group, 
to meet with some gentlemen up at the Franklin County State 
Airport on some aviation issues and he agreed to take us up in 
his Cessna and fly around and kind of see the landscape. We 
were able to fly over Lake Champlain from the new Missisquoi 
Bay Bridge, almost all the way to Jay Peak.
    I took some wonderful photographs, which I'm happy to 
submit as part of the record, that give you a different 
perspective of what the landscape really looks like from the 
air between Vermont and Canada, and there is absolutely no 
difference. So, any of those crossings, whether people want to 
cross through an official crossing or an unofficial crossing, 
it's near impossible to really understand the impact of the 
entire border structure from Maine all the way to Washington 
State. And Vermont's a small State. Once we get out to the 
midwest, that unprotected border is, to me, unimaginable. But 
it was interesting to see it from the air in a different 
perspective from the usual crossings that we all understand.
    Chairman Leahy. The Senator from North Dakota showed me a 
border crossing. You probably have seen this in the northern 
parts of North Dakota. It has a border that goes almost the 
length of New England, and probably beyond that. And at the 
border, when whoever is assigned to this particular part has 
the day off, they put a cone in the middle of the road.
    Mr. Picard. The cross-border cooperation that I referenced 
before is important. I'm not sure if it's been mentioned, but 
since 2001 Canada has spent over $10 billion on infrastructure 
and security improvements at the border as well, so they have 
been investigating this issue, as the United States has. I'm 
happy to report that the Province of Quebec Department of Motor 
Vehicles and the Vermont Department of Motor Vehicles are now 
talking about ways to come up with documentation that would be 
WHTI compliant.
    Finally, my last humorous story that I want to relate, is 
two of my colleagues, formerly with the Vermont Chamber, now 
reside in Maine and are getting married this year in Quebec 
City on New Year's Eve. As they go through this wedding 
process, those of us that understand the issue are not worried 
about it. But I can assure you, their guest list is constantly 
calling them, wondering if they are going to need passports to 
be able to attend the wedding in Quebec City.
    With technology these days, their wedding invitation and 
site is actually on the web and the link to the BESTT Coalition 
site to give people the latest on the passport information.
    [Laughter].
    But I've assured the bride that passports will not be 
needed by December 31st this year. She has made me swear that 
my work involved in this would try to make their wedding 
passport-free.
    In conclusion, thank you again, Senator, for your 
leadership on this. As I said, the work that Vermont has done 
as a whole has been a model for other States and the rest of 
the country to get behind this issue and I sincerely appreciate 
your efforts.
    Chairman Leahy. Thank you.
    My wife's mother was born in Quebec City and we go there 
often. I see an awful lot of Vermont cars there, just as I see 
an awful lot of Province of Quebec cars in Montpelier, 
Burlington, Newport, and elsewhere. I hope the wedding works 
out very well. Tell them to bring warm clothes, though.
    Several years ago, I worked in funding to boost technical 
assistance for Vermont businesses looking at international 
markets, wearing a hat as a member of the Appropriations 
Committee. The Director of that program, Dana Eidsness, has 
evolved the Vermont Global Trade Partnership into one of the 
region's leading trade offices.
    Her experience in trade offices along the northern border, 
including the Maine International Trade Center has shown her 
the importance of trade between the U.S. and Canada. Many 
Vermont businesses call her daily to talk about exporting. I 
suspect she probably starts off with something like, let's 
start in Canada and see where we go from there. So I hope that 
can continue to be a sound piece of advice.
    Dana, thank you for taking the time to come today. I look 
forward to your testimony.

STATEMENT OF DANA B. EIDSNESS, DIRECTOR OF INTERNATIONAL TRADE, 
     VERMONT GLOBAL TRADE PARTNERSHIP, MONTPELIER, VERMONT

    Ms. Eidsness. Thank you, Senator. Senator Leahy, I want to 
thank you for your leadership and I want to thank you for the 
opportunity to speak on this important issue. I'll begin this 
morning by sharing some background on my program for the record 
to set the foundation for statistics that I'll share later. I 
hope that my testimony this morning will demonstrate how 
crucial trade is to the Vermont economy as it relates to this 
issue.
    The Vermont Global Trade Partnership, or as I'll call it 
moving forward the VGTP, is Vermont's center for international 
business assistance and provides international market research, 
trade technical assistance, as well as educational programs on 
topics important to Vermont businesses.
    We partner with other organizations in the State to provide 
these services and expertise to companies throughout the State 
to help them do business internationally. Several of my 
partners are in the room today: the Vermont Chamber certainly 
is a partner, the U.S. Department of Commerce Commercial 
Service. We also work with regional development centers 
throughout the State. Basically, any business organization in 
the State that can provide some sort of international business 
development assistance to Vermont businesses, we want to work 
with.
    So far in 2007, the Vermont Global Trade Partnership has 
completed over 350 international market research and technical 
assistance projects for Vermont businesses. We are able to 
serve so many companies largely owing to this Federal earmark 
that you just mentioned--which, among other things, I use to 
support our very successful internship program at Champlain 
College.
    With this funding, the VGTP trains and supervises student 
interns in Vermont colleges and universities. These are paid 
internships, training future business leaders in Vermont. 
Through their work with us, we expose them to the State's most 
internationally active businesses and more than quadruple our 
research output capacity.
    Since the inception of the VGTP in 2004, the funding you 
helped provide has enabled us to support over 1,400 Vermont 
business and organization contacts through research and 
technical assistance, educational programs, and trade missions.
    Our services were responsible for $23 million in exports 
last year for small- and medium-sized businesses in Vermont. 
I'd like to take this opportunity to thank you for supporting 
my program.
    Increasingly, our technical assistance requests have 
centered on topics related to the logistics of doing business 
with Canada. We have inquiries regarding NAFTA compliance, 
shipping documentation, understanding Canadian goods and 
services tax and provincial sales tax, how to participate in 
Canada's non-resident importer program, and now more often 
regarding confusion over border crossing regulations.
    I was joking with one of my partners yesterday about how 
many of us it took to actually answer the question of what was 
needed to cross the land border from Vermont into Canada. It's 
sort of like, how many folks does it take to screw in a light 
bulb. The answer is actually three. It took three of us to put 
our heads together to remember what the current policy is.
    The VGTP and its partners are seeing a greater volume of 
small and first-time exporters interested in the Canadian 
market. This, I think, is partially due to the parity of the 
Canadian dollar to the U.S. dollar, and it's most definitely 
attributable to increased Internet access and the global market 
exposure that a web presence affords these companies.
    For instance, to give a local example, Al's Snowmobile is 
selling product to customers on nearly every continent in the 
world from right here in Newport. Marketing for this company is 
done almost exclusively over the Internet, and 60 percent of 
Al's Snowmobile orders are coming from Canada.
    Chairman Leahy. What percent?
    Ms. Eidsness. Sixty percent. Vermont businesses are 
retaining jobs and they're growing because of opportunities to 
sell products and services to the market next door. A free and 
open border for Vermont manufacturers, R&D, and retail 
businesses is more crucial than ever if our businesses and 
organizations are to remain globally competitive.
    I have some statistics to help illustrate this. The United 
States and Canada enjoy the largest bilateral trading 
relationship in the world, with more than $1.3 billion in goods 
and services crossing the border every day. More than 300,000 
business people, tourists, and regular commuters travel between 
the U.S. and Canada daily.
    Trade with the world, both exports and imports of goods and 
services, create jobs in Vermont. Today, trade supports over 
77,000 jobs in our State. Vermont's export shipments of 
merchandise in 2006 totaled $3.8 billion, and our exports 
increased 51 percent from 2002 to 2006.
    Our businesses exported to 148 foreign destinations in 2006 
and it's no surprise that the State's largest market by far was 
NAFTA member Canada, which received Vermont exports of $1.7 
billion, or 44 percent of Vermont's merchandise export total.
    We had a total of 828 companies exporting goods from 
Vermont locations in 2005. These are the most current 
statistics I have. Of those, 86 percent were small- and medium-
sized enterprises. For the rest of the U.S., that definition is 
for companies with under 500 employees. Here in Vermont, for 
the most part we're looking at companies with fewer than 50 
employees, or in some cases fewer than 10.
    Foreign-owned companies in Vermont, the majority of which 
are Canadian, employ more than 11,300 workers, which is nearly 
4.3 percent of Vermont's private sector employment, and 17,500 
Vermont jobs are supported by U.S.-Canada trade. That number 
does not include services, industries, or other non-
manufacturing sectors.
    In 2005, Vermont was Quebec's number-two export destination 
in the world behind New York, with over $3 billion in exports 
to our State. We're perennially in the top 10 as an importer of 
Quebec's goods, sharing this top 10 ranking with the likes of 
the U.K., China, Germany, France, and New York.
    Vermont and Canada have a longstanding, mutually beneficial 
trade relationship. The prospect of complicating this process, 
which is already overwhelming to many small and first-time 
exporters, many of whom cross the border to deliver shipments 
themselves, is worrisome.
    The Western Hemisphere Travel Initiative requirements for 
air travel took effect on January 23, 2007. Since then, delays 
in processing passport applications under the WHTI air travel 
rules have resulted in considerable backlog of applications, 
which in turn has resulted in significant inconvenience and 
cost to thousands of Americans. Premature release of the land 
border rules will result in greater passport backlogs up here.
    In the U.S. and Canada, citizens have come to rely on their 
driver's license as evidence of who they are. We have long 
relied on our license as being the only identity document 
needed, whether it's for opening a bank account or a quick trip 
across the nearest land border. The Western Hemisphere Travel 
Initiative is about to change that.
    To date, very few studies have been conducted on what, if 
any, economic impact WHTI may have on U.S.- Canadian travel, 
tourism, or trade. My clients are concerned about the expense, 
the inconvenience of passport processing delays, delays 
crossing the border, and how these issues will impact their 
flow of business.
    As you know, Governor Douglas and Secretary Michael 
Chertoff signed an agreement on September 26, 2007 that will 
allow Vermont to issue an enhanced driver's license and ID 
card, the EDL ID, to Vermont citizens for cross- border 
purposes. The State of Vermont plans to begin issuing the EDL 
ID in late 2008. It will securely denote identity and 
citizenship and will become an acceptable alternative to a 
passport for free entry into the U.S. at land and sea borders 
between the U.S., Canada, Mexico, Bermuda, and the Caribbean.
    The State of Vermont believes that in order to preserve the 
economic gains of recent years and to allow for free and easy 
travel between Vermont and Quebec, it's equally important for 
the citizens of Quebec to have easy and affordable access to an 
enhanced driver's license.
    Vermont's trade with Canada is tremendously important to 
our economy, and the Western Hemisphere Travel Initiative will 
have an impact on our businesses, the communities we serve, and 
the Vermont and American economies. I understand the importance 
of secure borders for our State and Nation, and I encourage 
measures to create an affordable, simple solution for 
businesses, tourists, and commuters to travel across our 
borders for the mutual benefit of our economies and for the 
continued growth of our cultural and economic ties.
    Thank you again, Senator Leahy, for allowing me this 
opportunity to outline the importance of ensuring efficient 
border crossing for Vermont's people and commercial goods. I'd 
also like to extend a special thanks to you and your staff for 
the work you do to support Vermont businesses.
    Thank you.
    [The prepared statement of Ms. Eidsness appears as a 
submission for the record.]
    Chairman Leahy. Thank you very much. You mentioned these 
companies and government organizations. I see Connie and 
Stanley Lowe here, and we have Maureen Connolly, Bill Zuccareno 
from the Economic Development Corporation of Northern Vermont. 
Steve Patterson. I was talking with him the other day for the 
Regional Development Corporation. Rudy Chase, from MSA and the 
helmets that are made here. Susan Murray from the Department of 
Commerce Commercial Service, and others. There are so many 
people who are connected with this.
    The businesses that are on both sides of the border--my 
father-in-law worked in one of those. I visited once, and went 
back and forth across several times. This was years ago, when I 
was growing up. My annual disclosure for the Senate, when you 
visit other countries and put down how many times, it said to 
count the number of times you went by and what the 
transportation was. On such and such a date, 10 trips to 
Canada. Transportation: I walked. I got a lot of very strange 
looks from the secretary of the Senate on that one.
    But I also, in preparing for this hearing, was telling some 
of our grown children, I was born in Montpelier. When I was a 
little kid, I'd ride up with my parents for the day to Canada, 
usually Montreal. We'd just drive up for the day. Their comment 
was, being totally unimpressed, was, ``Dad, did they have cars 
when you were a little boy? ''
    [Laughter].
    I just want you to know that sometimes within your family 
they're not the least bit impressed with the title.
    Patricia Sears, or many of us know her as Tricia, is the 
executive director of the Newport City Renaissance Corporation. 
She served as chair of the Northeast Kingdom Collaborative, so 
she has a great, unique perspective on this.
    I have heard from Newport merchants that they would carry 
Canadian currency in their cash drawers and were fluently 
bilingual, and they depend upon those Quebec license plates for 
a large portion of their businesses. Tricia, it's good to see 
you. It's been, what, all of 2 weeks since I saw you last in 
Burlington?
    Ms. Sears. Yes.
    Chairman Leahy. Please go ahead.

 STATEMENT OF PATRICIA SEARS, EXECUTIVE DIRECTOR, NEWPORT CITY 
           RENAISSANCE CORPORATION, NEWPORT, VERMONT

    Ms. Sears. Good morning. Senator Leahy and distinguished 
members of the U.S. Senate Judiciary Committee, fellow 
panelists, and guests, I appreciate the opportunity to testify 
on behalf of the Newport City Renaissance Corporation, 
addressing the economic and community implications of northern 
border security.
    First, I'd like to welcome you all to our fair city of 
Newport, gateway to Vermont's northeast kingdom, one of only 
two National Geographic geotourism destinations in the entire 
country.
    If you look out the windows here and you look out to the 
north, you will see Canada and the border is not visible. The 
beautiful international Lake Memphramagog is a rich region 
whose culture spans two languages, two countries, one lake.
    We enjoy a robust relationship with potential partnerships 
that would push and pull international trade and tourism. These 
partnerships are at risk, at risk of enduring a chilling effect 
because of border delays and hostility by border guards.
    Momentum is building for Newport's renaissance of 
commercial and community development. We do not appreciate the 
timing of the unwarranted tension and high cost of crossing the 
border. The direct business impact on downtown merchants of 
Newport is illustrated by Main Street proprietors Steve 
Crevochet and Madeline Wingfield with this quote: ``As a 
business in downtown Newport, we have been profoundly affected 
by the new difficulties encountered by our customers when 
crossing the border. Please remember, and let it be an 
indication of the historically high level of international 
mixing of populations, that many Americans live on the Canadian 
side of the border.
    Many of them are our customers. They repeatedly confide to 
us that the frequency of their border crossing has been 
diminished quite a bit. One good customer now limits her trips 
to Vermont once every 2 weeks, and she is a U.S. citizen.''
    The implications are simple and easily understood: the 
tighter and farther-reaching of the border policies, the 
greater impact on the choices people make to come to our 
beautiful city as visitors. Why would someone planning a trip 
to Newport to shop, enjoy a meal, walk along Lake Memphramagog 
on the beautiful boardwalk, maybe even take a boat ride, all of 
which might last four to 5 hours, why would they do so if they 
had to, at the very least, endure an unwelcoming attitude and a 
long wait at the border, or at the worst, face outright 
hostility? And even if such long waits are infrequent, why 
would they want to take the risk that they might wait that 
long?
    How do I, as a representative of the Newport City Downtown 
Renaissance Corporation, or any other Newport business owner, 
answer the tourist who has encountered situations like this and 
asks, why? Why do the crossings have to be so unfriendly? This 
could become a fact of daily operations here in Newport and, 
thus, dampening the enhancement, the expansion, or new location 
of businesses on main street.
    With the U.S. dollar currently on par with the Canadian 
dollar, the potential for Canadian investment in property and 
co-locating businesses here should be huge. However, Frank 
Knowle, a private developer of Mt. Vernon Estates here in 
Newport, offers ``any Newport company doing business with 
Canada will be affected by costly restrictions. Having invested 
a considerable amount in infrastructure and upscale residences 
for the Newport area, we are having potential buyers from 
Canada consider not having a second home here if border 
restrictions and delays increase. Everyone understands the need 
for security. There simply needs to be a streamlined entry 
procedure for Canadians having a second home in Vermont.''
    Lately, we've been made aware that a decision made from a 
distance and in isolation from our daily lives here in the 
kingdom is aimed at implementing the Western Hemisphere Travel 
Initiative. This initiative has a requirement for passports, 
for land crossings between Canada and the U.S. It is scheduled 
for implementation January of 2008.
    This initiative could further shut us off from visitors. 
Experience tells us we do not have the infrastructure in place 
to handle the demand for these passports. For this reason, we 
would support delaying its implementation to June of 2009 at 
the earliest. In this way, we allow time to develop a system 
that meets best practice standards for border protection and 
satisfies the needs of the traveler.
    I'm going to leave you with a message from an Amish 
community regarding a recent event in their community about a 
year ago: hostility destroys community. Avoid being hostage to 
hostility.
    I ask that the balance of my remarks be entered into the 
record, and I thank you, Senator.
    Chairman Leahy. Without objection, it will be.
    [The prepared statement of Ms. Sears appears as a 
submission fro the record.]
    Chairman Leahy. Thank you. I know the incident of which you 
speak. I also know what that community did for the family of 
the person who created so much tragedy. It should be a model to 
all of us in the way we should live our lives.
    As you note, Representative Al Perry, of Richford is here. 
I see you back there. And Representative Mike Marcotte of 
Newport. I don't know if we have other representatives here. 
Former representatives, and others.
    We're going to use your testimony and it's going to be the 
basis of other hearings I'll be holding, both in Appropriations 
and in Judiciary. If you had Secretary Rice and Secretary 
Chertoff sitting here, both with concerns about the security of 
this country--and I respect that, we all do. After all, I go to 
work every day in a building that was marked for destruction by 
the hijackers, and it is still a major target, from all the 
information we have. I am proud to go. I feel gratitude to 
Vermonters who have allowed me to go to work every day there.
    But if you had them here and they said to you, okay, what 
would you do to have something that would have clear, 
definable, easily used identification, talking just about the 
northern border now, what would you recommend? Because they're 
going to come up with something. What would you recommend that 
they work out with the Canadians?
    Bruce, do you want to start with that one? And 
incidentally, as I always do in these, I keep the record open 
for a week, so after you've seen the transcript, if you want to 
add to it, of course you're free to. I made the same offer to 
now former Attorney General--he resigned.
    [Laughter].
    Mr. Hyde. I'd better watch what I say here.
    [Laughter].
    Chairman Leahy. I'm not suggesting that for any of you. No. 
You've all taken a great deal of time out of your schedule to 
be here, and I appreciate that.
    But Bruce, what would you do?
    Mr. Hyde. What I would do is ask them to take a look at the 
European Union and how there is free passage across borders in 
Europe of dissimilar cultures, warring communities that at this 
point have free passage. I would ask them to really look at 
working with Canadian intelligence much more closely to try to 
come up with a plan that would be much more intelligent, for 
one thing, but also be able to hopefully stop the bad people 
and allow the good people to pass through.
    Chairman Leahy. Bill?
    Mr. Stenger. Well, Senator, in addition to Secretary Rice 
and Secretary Chertoff, I would ask you to invite the Secretary 
of Commerce to be in that room as well, because I think this is 
a perfect example of silo government action. We have the State 
Department that thinks only about its issues, Homeland Security 
that thinks only about its issues, and the economy of the 
northern border is not on either of their agendas.
    So I think, unless they're made aware of the fact that 
their actions can seriously injure our economy, they're not 
going to take into consideration our feelings and our needs. 
There are thousands of businesses, and tens of thousands of 
Americans, who rely on this border for not just their security, 
but their livelihood.
    It's a very real issue for those of us that live and work 
on the border throughout this northern tier. So, I think they 
need to be broadened in their horizon a bit to respect the 
economic impacts that are at risk, and I think they could 
benefit from that.
    The other thing, I think from a tangible standpoint, of all 
the issues that we have come across with this problem, I think 
the one that perhaps has some promise is the enhanced license. 
We all have to renew our driver's license every few years. If 
we are able to find the right technology that can be 
implemented into the State driver's licenses and it's an 
optional thing, it may be a phaseable, affordable mechanism for 
some kind of border security.
    It's worthless in this economic issue if the Provinces of 
Quebec and Ontario, in our region, are not included in it. 
There is a test program under way in Washington State, and the 
Province of British Columbia is a partner in that. So the 
enhanced license might be promising. It needs to be tested 
thoroughly before implementation. Obviously our neighbors or 
provinces to the north need to be included in that whole mix. 
Thank you.
    Chairman Leahy. Thank you.
    Tim?
    Mr. Shea. I will echo Bill's statement, but first state 
that I suggest they take their foot off the gas pedal on this 
one here. We all want secure borders, but this is moving too 
fast to find a good solution here. So, one, we need more time.
    Two, I think, as Bill said, the driver's license offers 
great potential, provided it works for our friends north of the 
border. Third, would be more formal discussions with the 
Canadian Government to find a solution that works for all of 
us. This is such a unique situation we have with the northern 
border when compared to other borders. We need to have some 
more formal discussions to have the Canadian Government at the 
table to find an appropriate solution.
    Chairman Leahy. And, of course, we have to look at the fact 
that you have people who won't have a driver's license, either 
very young or very old.
    Mr. Shea. That will need to be addressed also.
    Chairman Leahy. Curtis? Incidentally, the president of the 
U.S. Chamber of Commerce came in to see me and was just beside 
himself at the projections of the hundreds of billions of 
dollars worth of jobs that will be lost if we don't do this 
right.
    Curtis, what would you suggest?
    Mr. Picard. I would echo Commissioner Hyde as well. I think 
the European Union is an excellent model to look at. I keep 
going back to the very fundamental issue that, in 2007, it 
should be easier to go between the United States and Canada, 
not harder. Whatever the solution is, it needs to be simple, 
easy, and easily adoptable on both sides of the border.
    The last point I'll make is, whether you go ahead and get a 
passport or an enhanced driver's license, it's the foundation 
documents that you go back to that establish your citizenship. 
For me, that is a single sheet of paper, typewritten back in 
the late 1960's that verifies that I was born in the United 
States.
    Those foundation documents aren't going to change for most 
of us anytime soon. So, establishing citizenship--you know, 
basically they're saying we're assuming everybody's bad until 
you prove they're good. As we've said all along, who is this 
really going to catch? I think the people that wish to do harm 
to the United States or to Canada are going to find a way to 
get in legally.
    Chairman Leahy. And Dana? I agree with you.
    Ms. Eidsness. I think I echo the comments of my partners 
here at the table. The EU is a great model. I would urge DHS to 
please consider the commercial considerations. I do think the 
enhanced license is promising, but I echo Curtis's remarks, in 
that it really does need to be a very simple solution. Maybe 
that's as simple as reducing the price of passports and making 
them more accessible to people. Obviously we'll need to staff 
up and ensure that there aren't tremendous backlogs because of 
that.
    Chairman Leahy. And that has to be done on the other side 
of the border, too, right?
    Ms. Eidsness. Absolutely. That was my next comment, is that 
I would like to see negotiations for a reciprocal program in 
Canada. I think there needs to be more discourse about that.
    Chairman Leahy. Thank you.
    Tricia?
    Ms. Sears. I would offer to Secretaries Chertoff and Rice 
that, even as the token flatlander in my family, I have come to 
fully appreciate the common sense approach of Vermonters, and I 
would offer that as a model. I would offer that as slowing 
down, figuring out what common sense will tell them as far as 
implementing something of such vast proportions, the unintended 
consequences that it would have on private businesses and 
individuals, and the value of partnerships, and especially 
partnerships with non-governmental folks, very much the 
business sector, but also the rest of us.
    Chairman Leahy. Well, you're going to hear many of these 
things quoted back in further hearings. Bill Stenger, the idea 
of the Secretary of Commerce--I'm going to call Secretary 
Gutierrez as soon as I get back from Washington. I may even 
call him from home this afternoon. I think that is a good idea.
    Bruce, you mentioned the EU. Many of my mother's family--my 
grandparents--had emigrated. My maternal grandparents emigrated 
to Vermont from Italy, up in the northeast corner of Italy. 
Marcel and I have driven back and forth and you're crossing two 
or three borders, the Austrian border, the Italian border 
there.
    When we've driven it, when I reach for my passport, 
suddenly I realize I've crossed the border because the signs, 
the languages changed. It is seamless. They go from France to 
neighboring countries. You see signs in French and then they're 
in a different language. These are things we should consider.
    Tim, you're right in saying slow down. This is what Senator 
Stevens and I, in our legislation, are trying to do. We've 
tried to make sure that people understand that it's not a 
partisan issue. We've got conservatives, liberals, Republicans, 
and Democrats on it. The governor and I see eye to eye on this. 
We all do. We're trying to slow down before you create a 
fiasco.
    Curtis, what you said, I absolutely agree with, the idea of 
a simple solution, whatever that might be. I think what we're 
getting to is far more complicated than what it's going to be, 
or needs to be. If I thought it enhanced our security, it would 
be one thing. I suggested to the--there's been talk about 
improved intelligence.
    I suggested there's hundreds of billions of dollars of 
income we could lose in this country, and it would be a lot 
better if we spent a billion or so in improving the 
intelligence on both sides of the border because there are 
people who prove a threat to both Canada and the United States 
who want to come in. That's a fact of life. That's not going to 
change in my lifetime or your lifetime. But this is not the 
thing that will stop them. As Tricia said, most people are very 
good. We know that here in Vermont.
    So I thank you all for doing this. You've taken a great 
deal of time out of your schedules.
    I'm glad to have our Court Reporter who usually is with us 
in a very dark, windowless hearing room in Washington. Do you 
like this better? Is this better? I like it better. I wish I 
could hold all of my hearings in here. It is interesting, I 
should tell you, in late January.
    [Laughter].
    Everybody who lives here is nodding.
    Mr. Stenger. Senator, one thing I'd like to ask for your 
help on. There's damage being done right now. The uncertainty 
in the marketplace--Curtis's comments about the wedding party 
that was going to Quebec. The communications out of the 
Department of Homeland Security have been inconsistent at best. 
We're heading into holiday periods. We've gone through a 
terrible summer.
    This past weekend I was in Montreal. The radio stations 
give the sports scores, they give the weather report, and they 
give the waiting time at the border now. I was coming back to 
Vermont and the comments on the radio were, well, coming into 
Canada was a 15-minute wait, but coming into the United States 
from Canada was a 2-hour wait.
    When your family is in Stansted or north of Burlington and 
you're thinking of coming into the country and you're hearing 
that on the radio, a 2-hour delay, you're not going to come. 
I've seen over the last six or 8 months communiques from 
Homeland Security that have been inaccurate, amazingly so, that 
they would put out something that is legally or technically 
incorrect and they'd have to retract it.
    So I know that you have great influence, and I hope that 
over the next few months, as we get closer to decision-making 
points, that people will think before they speak because the 
impact is profound. This Main Street of Newport is being harmed 
right now because of the uncertainty of what's out there in 
this issue. Frankly, I fear for my winter because of the 
uncertainty of what people are thinking about what will happen 
January 1, and when will it be implemented. So, you're a 
champion of ours, and I mean that.
    Chairman Leahy. Thank you.
    Mr. Stenger. I thank you again for this opportunity.
    Chairman Leahy. Well, we're concerned about it. I mean, I 
obviously have a family and personal interest in Canada. But 
just looking at it objectively as a U.S. Senator, I think how 
fortunate we are to have a 5,000- mile unguarded frontier 
where, in today's world, we have a friend on the other side. I 
once said in a speech in Ottawa--in fact, the speech was 10 
years ago and we were talking about land mines. I began my 
speech, in the first couple of paragraphs, in both French and 
English.
    But I said, coming from the State of Vermont, I think of 
Canada as that giant to the north. But we are fortunate to have 
it. Do we ever have political differences with Canada? Of 
course we do. Do we have political differences among each other 
in Vermont? Of course we do. But we don't seal off the border. 
I will bring back these comments, having more perspective and 
clarity.
    Curtis, I want to use your example with the wedding, 
because I suspect that could be replicated thousands of times 
in other things: it's a family reunion, it's the anniversary, 
it's the birthday party, it's the wedding, it's whatever it 
might be and how we do that.
    One of Marcel's relatives died last year and we were 
driving up to Canada. We had others coming to join us. Her 
brother from Chicago had asked me, do I need to bring a 
passport? This is to go to a funeral 20 miles on the other side 
of the border.
    So, thank you all very much.
    [Whereupon, at 12:14 p.m. the hearing was adjourned.]
    [Submissions for the record follow.]

    [GRAPHIC] [TIFF OMITTED] T0285.001
    
    [GRAPHIC] [TIFF OMITTED] T0285.002
    
    [GRAPHIC] [TIFF OMITTED] T0285.003
    
    [GRAPHIC] [TIFF OMITTED] T0285.004
    
    [GRAPHIC] [TIFF OMITTED] T0285.005
    
    [GRAPHIC] [TIFF OMITTED] T0285.006
    
    [GRAPHIC] [TIFF OMITTED] T0285.007
    
    [GRAPHIC] [TIFF OMITTED] T0285.008
    
    [GRAPHIC] [TIFF OMITTED] T0285.009
    
    [GRAPHIC] [TIFF OMITTED] T0285.010
    
    [GRAPHIC] [TIFF OMITTED] T0285.011
    
    [GRAPHIC] [TIFF OMITTED] T0285.012
    
    [GRAPHIC] [TIFF OMITTED] T0285.013
    
    [GRAPHIC] [TIFF OMITTED] T0285.014
    
    [GRAPHIC] [TIFF OMITTED] T0285.015
    
    [GRAPHIC] [TIFF OMITTED] T0285.016
    
    [GRAPHIC] [TIFF OMITTED] T0285.017
    
    [GRAPHIC] [TIFF OMITTED] T0285.018
    
    [GRAPHIC] [TIFF OMITTED] T0285.019
    
    [GRAPHIC] [TIFF OMITTED] T0285.020
    
    [GRAPHIC] [TIFF OMITTED] T0285.021
    
    [GRAPHIC] [TIFF OMITTED] T0285.022
    
    [GRAPHIC] [TIFF OMITTED] T0285.023
    
    [GRAPHIC] [TIFF OMITTED] T0285.024
    
    [GRAPHIC] [TIFF OMITTED] T0285.025
    
    [GRAPHIC] [TIFF OMITTED] T0285.026
    
    [GRAPHIC] [TIFF OMITTED] T0285.027
    
    [GRAPHIC] [TIFF OMITTED] T0285.028
    
    [GRAPHIC] [TIFF OMITTED] T0285.029
    
    [GRAPHIC] [TIFF OMITTED] T0285.030
    
    [GRAPHIC] [TIFF OMITTED] T0285.031
    
    [GRAPHIC] [TIFF OMITTED] T0285.032
    
    [GRAPHIC] [TIFF OMITTED] T0285.033
    
    [GRAPHIC] [TIFF OMITTED] T0285.034
    
    [GRAPHIC] [TIFF OMITTED] T0285.035
    
    [GRAPHIC] [TIFF OMITTED] T0285.036
    
    [GRAPHIC] [TIFF OMITTED] T0285.037
    
    [GRAPHIC] [TIFF OMITTED] T0285.038
    
    [GRAPHIC] [TIFF OMITTED] T0285.039
    
    [GRAPHIC] [TIFF OMITTED] T0285.040
    
    [GRAPHIC] [TIFF OMITTED] T0285.041
    
                                 <all>

</pre></body></html>
